2311 Douglas Street
Omaha, Nebraska 68102-1214

C@OCKLE

Legal Briefs E-Mail Address:
8 contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com

Fax: (402) 342-4850 No.

THOMAS J. SKELTON, Petitioner,

v.
ILLINOIS SUPREME COURT, ILLINOIS BOARD OF ADMISSIONS
TO THE BAR, AND COMMITTEE ON CHARACTER AND FITNESS
FOR THE FIRST JUDICIAL DISTRICT, Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 5th day of June, 2020, send out from
Omaha, NE 5 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above entitled case.
All parties required to be served have been served by third-party commercial carrier for delivery within 3 calendar days.
Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
TRISHA M. RICH LAURIE WEBB DANIEL*
CHRISTOPHER R. HEREDIA. MATTHEW D. FRIEDLANDER
HOLLAND & KNIGHT LLP HOLLAND & KNIGHT LLP
150N. Riverside Plaza 1180 West Peachtree Street
Suite 2700 Suite 1800
Chicago, TL 60606 Atlanta, GA 30309
(312) 263-2600 (404) 817-8500
trisha.rich@hklaw.com laurie.daniel@hklaw.com
christopher.heredia@ matthew. friedlander@
hklaw.com hklaw.com

DAVID J. ELKANICH
HOLLAND & KNIGHT LLP

JAMES A. DOPPKE, JR.
ROBINSON, STEWART,

601 SW Second Street MONTGOMERY &
Suite 1800 DOPPKE LLC
Portland, OR 97204 3218. Plymouth Court
(503) 517-2928 14th Floor
david.elkanich@hbklaw.com Chicago, IL 60604
Counsel for (312) 676-9875
Thomas J. Skelton jdoppke@rsmdlaw.com

*Counsel of Record

Subscribed and sworn to before me this Sth day of June, 2020. .
1am duly authorized under the laws of the State of Nebraska to. administer oaths.

frre | Kone, 0. ooo Ondia-h. Bhd

Notary Public 7 Affiant 39801

ty Comma. Exp. September 5, 2023

 

 
Skelton v. Illinois Supreme Court, et al.
Service List
1. Supreme Court of Illinois:
a. Chief Justice Anne M. Burke, in her official capacity as Chief Justice of the
Illinois Supreme Court
Supreme Court Building
200 East Capitol Avenue
Springfield, IL 62701
Phone: (217) 782-2035
Email: rkarpinski@illinoiscourts.gov

b. Carolyn Taft Grosboll, in her official capacity as Clerk of the Illinois Supreme
Court
Office of the Clerk of the Illinois Supreme Court
Michael A. Bilandic Building
160 North LaSalle Street, 20" Floor
Chicago, IL 60601-3103
Phone: (312) 793-1332
Email: cgrosboll@illinoiscourts.gov

2. Illinois Board of Admissions to the Bar:
Andrew Raucci, in his official capacity as President of the Illinois Board of
Admissions to the Bar
Illinois Board of Admissions to the Bar
625 South College Street
Springfield, IL 62704
Phone: (217) 522-5917
Email: ilobby30n@aol.com

3. Committee on Character and Fitness for the First Judicial District
a. Vanesa Williams, in her official capacity as Director of Character and Fitness of
the Illinois Board of Admissions to the Bar
Illinois Board of Admissions to the Bar
Committee on Character and Fitness
625 South College Street
Springfield, IL 62704
Phone: (217) 522-5917
Email: vwilliams@ilbaradmissions.org

b. Nancy Vincent, in her official capacity as Director of Administration of the
Illinois Board of Admissions to the Bar
Illinois Board of Admissions to the Bar
625 South College Street
Springfield, IL 62704
Phone: (217) 522-5917
Email: nvincent@ilbaradmissions.org
